                       OFFICE OF
                THE INSPECTOR GENERAL

                    U.S. NUCLEAR
               REGULATORY COMMISSION



                  Audit of the Licensing Support Network

                      OIG–04-A-16 August 12, 2004




                        AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s website at:
             http://www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                              August 12, 2004




MEMORANDUM TO:                 G. Paul Bollwerk, III
                               Chief Administrative Judge

                               Luis A. Reyes
                               Executive Director for Operations



FROM:                          Stephen D. Dingbaum/RA/
                               Assistant Inspector General for Audits


SUBJECT:                       AUDIT OF THE LICENSING SUPPORT NETWORK
                               (OIG-04-A-16)


Attached is the Office of the Inspector General=s audit report titled, Audit of the Licensing
Support Network.

The report reflects the results of our audit to determine if (1) the Licensing Support Network
(LSN) meets its required operational capabilities, (2) NRC=s communication with parties
regarding LSN has been adequate, and (3) LSN provides for the confidentiality, availability, and
integrity of the data stored in the system. Overall, we found that, in May 2004, NRC reached a
long-sought agreement with the Department of Energy concerning LSN document availability.
Additionally, the Atomic Safety and Licensing Board Panel (ASLBP) communications with the
parties about LSN and the Yucca Mountain licensing process have been effective. However,
improvements are needed to strengthen LSN system security. Specifically, NRC needs to
establish security agreements with all LSN interconnected parties and bring the LSN security
plan into compliance with Federal regulations.

This report makes two recommendations to ASLBP to strengthen security of the LSN system.

Comments provided at the June 24, 2004, exit conference, during subsequent discussions, and
in two memos dated July 14 and 16, 2004, have been incorporated, as appropriate, in our final
report. Appendices D and E contain the Agency’s comments in their entirety and our specific
response to each comment.

If you have any questions or wish to discuss this report, please call me at 415-5915 or
Beth Serepca at 415-5911.

Attachment: As stated

cc:     W. Dean, OEDO
Distribution List

B. John Garrick, Chairman, Advisory Committee on Nuclear Waste
Mario V. Bonaca, Chairman, Advisory Committee on Reactor Safeguards
John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
Dennis K. Rathbun, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Patricia G. Norry, Deputy Executive Director for Management Services, OEDO
William F. Kane, Deputy Executive Director for Homeland Protection
  and Preparedness, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research
  and State Programs, OEDO
Ellis W. Merschoff, Deputy Executive Director for Reactor Programs, OEDO
Jacqueline E. Silber, Chief Information Officer
Michael L. Springer, Director, Office of Administration
Frank J. Congel, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Paul E. Bird, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
Office of Public Affairs, Region I
Office of Public Affairs, Region II
Office of Public Affairs, Region III
Office of Public Affairs, Region IV
                                             Audit of the Licensing Support Network




EXECUTIVE SUMMARY

   BACKGROUND

         The Nuclear Waste Policy Act of 1982, as amended, defines
         United States policies governing the permanent disposal of
         high-level radioactive waste. This act mandates that the
         Department of Energy (DOE) has responsibility for constructing,
         operating, and permanently closing a high-level nuclear waste
         storage and disposal facility. This process requires DOE to
         obtain authorization from the Nuclear Regulatory Commission
         (NRC) to construct such a repository, as NRC is the agency that
         regulates the civilian use of nuclear materials. Federal
         regulations that dictate the rules for licensing Yucca Mountain
         require NRC to develop the Licensing Support Network (LSN), a
         Web-based search and retrieval system designed to allow
         parties electronic access to all documents that could be used in
         the hearing.

   PURPOSE

         The objectives of this audit were to determine if (1) the LSN
         system meets its required operational capabilities, (2) NRC’s
         communication with parties regarding LSN has been adequate,
         and (3) the system provides for the confidentiality, availability,
         and integrity of the data stored in the system.

   RESULTS IN BRIEF

         In May 2004, NRC reached a long-sought agreement with DOE
         concerning LSN document availability. Additionally, Atomic
         Safety and Licensing Board Panel (ASLBP) communications
         with the parties about LSN and the Yucca Mountain licensing
         process have been effective. However, improvements are
         needed to strengthen LSN system security. Specifically, NRC
         needs to establish written agreements addressing security
         responsibilities with parties whose servers are interconnected
         with LSN and to bring the LSN security plan into compliance
         with Federal regulations.




                                   i
                                                        Audit of the Licensing Support Network



                   NRC and DOE Agree on an Approach for Making Documents
                   Available via LSN

                   In May 2004, NRC and DOE reached a long-sought agreement
                   that allows parties access to DOE’s discovery document
                   collection in accordance with LSN Rule requirements
                   concerning document availability. Through this agreement,
                   DOE began providing NRC with electronic access to DOE’s
                   initial set of approximately 500,000 discovery documents before
                   DOE certified this collection on June 30, 2004. Such access
                   allowed NRC to begin processing and making these documents
                   available in anticipation of a December 2004 license application
                   submittal.

                   ASLBP Communications With Parties Have Been Well
                   Received

                   ASLBP staff efforts to communicate with and accommodate the
                   technical needs of the parties who will be using LSN have been
                   well received by party representatives. Responses to technical
                   needs have included allowing parties access for both viewing
                   the universe of discovery documents and making their own
                   document collections available through the system.

                   NRC Lacks Agreements on Security With Interconnected
                   Parties

                   ASLBP lacks written agreements on security with parties whose
                   servers are interconnected with LSN. Such agreements are
                   required by Federal regulations between interconnecting system
                   owners when one party is a Federal agency. NRC lacks such
                   agreements1 because ASLBP does not view LSN as
                   interconnected, even though it meets the Government’s
                   definition of such a system. By establishing written agreements
                   addressing security responsibilities with parties whose servers
                   are interconnected with LSN, NRC can strengthen LSN’s
                   protection against security breaches that could compromise
                   LSN and the interconnected servers. A security breach could
                   compromise the discovery data, which would affect both the
                   Yucca Mountain license proceedings and public confidence in
                   NRC.




1
    LSN is the only NRC owned interconnecting system.


                                                  ii
                                        Audit of the Licensing Support Network



     LSN Security Plan Lacks Complete Documentation

     NRC has conducted extensive reviews of LSN system security;
     however, review results have not been documented in the
     system security plan despite Federal requirements that this
     occur. This information was not included in the security plan
     because ASLBP was unaware of these particular requirements.
     As a result, the security plan is not in compliance with Federal
     regulations. Furthermore, by storing this information in a single
     location, NRC can better ensure that security issues are
     addressed and resolved.

RECOMMENDATIONS

     This report makes 2 recommendations to ASLBP to strengthen
     security of the LSN system. A consolidated list of
     recommendations appears on page 11 of this report.

AGENCY COMMENTS

     On July 14, 2004, the Executive Director for Operations
     provided comments and on July 16, 2004, the Chief
     Administrative Judge provided comments concerning the draft
     audit report. We modified the report as we determined
     appropriate in response to these comments. Appendices D and
     E contain both NRC’s comments and our specific response to
     each comment.




                             iii
                          Audit of the Licensing Support Network




[Page intentionally left blank.]




               iv
                                   Audit of the Licensing Support Network




ABBREVIATIONS AND ACRONYMS

       ASLBP   Atomic Safety and Licensing Board Panel
       DOE     Department of Energy
       LSN     Licensing Support Network
       NIST    National Institute of Standards and Technology
       NRC     Nuclear Regulatory Commission
       OMB     Office of Management and Budget




                          v
                          Audit of the Licensing Support Network




[Page intentionally left blank.]




               vi
                                                             Audit of the Licensing Support Network




TABLE OF CONTENTS

    EXECUTIVE SUMMARY.................................................................. i
    ABBREVIATIONS AND ACRONYMS ............................................. v
    I.      BACKGROUND ....................................................................1
    II.     PURPOSE ............................................................................3
    III.    FINDINGS.............................................................................3
            A.       NRC AND DOE AGREE ON AN APPROACH FOR MAKING
                     DOCUMENTS AVAILABLE VIA LSN ..................................4
            B.       ASLBP COMMUNICATIONS W ITH PARTIES HAVE BEEN
                     WELL RECEIVED ...........................................................6
            C.       NRC LACKS AGREEMENTS ON SECURITY W ITH
                     INTERCONNECTED PARTIES ...........................................7
            D.       LSN SECURITY PLAN LACKS COMPLETE
                     DOCUMENTATION .........................................................9


    IV.     CONSOLIDATED LIST OF RECOMMENDATIONS...........11
    V.      AGENCY COMMENTS.......................................................13
    APPENDICES
            A.       Scope and Methodology ..........................................15
            B.       Diagram of Licensing Support Network Architecture 17
            C.       Timeline of Significant LSN Events ..........................19
            D.       ASLBP Comments and OIG Response....................21
            E.       EDO Comments and OIG Response .......................25




                                              vii
                  Audit of the Licensing Support Network




[Page intentionally left blank.]




       viii
                                              Audit of the Licensing Support Network



I. BACKGROUND

       Nuclear Waste Policy Act

       The Nuclear Waste Policy Act of 1982, as amended, (The Act)
       defines United States policies governing the permanent disposal of
       high-level radioactive waste. The Act mandates the Department of
       Energy (DOE) has responsibility for constructing, operating, and
       permanently closing a high-level nuclear waste storage and
       disposal facility. This process requires DOE to obtain authorization
       from the Nuclear Regulatory Commission (NRC) to construct such
       a repository, as NRC is the agency that regulates the civilian use of
       nuclear materials. The Act identifies Yucca Mountain, Nevada, as
       the single candidate site for the high-level waste repository. The
       Act, as amended, requires that once DOE submits a license
       application, NRC will have 3 years to perform its review, conduct a
       public hearing, and reach a decision as to whether DOE can
       proceed with construction. The law allows for a fourth year for the
       review process, if needed. Currently, DOE projects it will submit its
       license application in December 2004.

       Creation of the Licensing Support Network

       Federal regulations that dictate procedures applicable to the
       proceeding for issuance of a license for a high-level waste geologic
       repository are contained in the Code of Federal Regulations, Title
       10, Part 2, Subpart J, “Procedures Applicable to Proceedings for
       the Issuance of Licenses for the Receipt of High-Level Radioactive
       Waste at a Geologic Repository” (LSN Rule). These regulations
       require NRC to develop the Licensing Support Network (LSN), a
       Web-based search and retrieval system designed to allow parties
       electronic access to all documents that could be used in the
       hearing. One of LSN’s main purposes is to lessen the discovery
       period (i.e., time spent on the exchange of documents that may be
       used as evidence in the NRC licensing proceeding), which occurs
       at the start of the license application process. Usually, the
       discovery process involves requests for physical access to
       documents.

       The LSN Rule also identifies NRC’s role and the roles of the other
       licensing process participants such as the LSN Administrator and
       the LSN Advisory Review Panel. According to the LSN Rule, the
       LSN Administrator is an NRC employee responsible for
       coordinating access to and the integrity of all data available on
       LSN. This individual also identifies technical and policy issues for
       the LSN Advisory Review Panel and Commission consideration.


                                  1
                                                                 Audit of the Licensing Support Network



                 The panel is a group of 17 representatives from interested parties2
                 who are to provide advice to NRC on the technical requirements
                 and functionality of LSN. The LSN Rule also:

                 •   Describes the rules and guidelines for submitting documents to
                     LSN,

                 •   Defines the parties and their responsibilities for establishing
                     their own data repository servers and providing their information
                     to LSN,

                 •   Establishes that once a party has submitted all documents to
                     NRC, a party representative must certify to NRC that its
                     collection is complete and electronically available, and

                 •   Requires DOE to initially certify its document collection at least
                     6 months before submitting its license application and update
                     the certification when submitting its license application.

                 System Capability

                 LSN is a Web-based system that accesses other party-owned
                 servers. Once each party establishes a server to house its
                 documents, LSN connects with these servers, scans the
                 information contained within these servers, and indexes the
                 documents. (See Appendix B for a diagram of LSN architecture.)
                 Indexing is a process that consists of searching the documents to
                 identify key words and themes and then creating a store of these
                 key words and themes with reference to the original data source for
                 easy search and retrieval.

                 NRC’s Atomic Safety and Licensing Board Panel (ASLBP)
                 manages LSN development and is responsible for system security
                 and functionality3. ASLBP conducts hearings for the Commission
                 and performs other regulatory functions as the Commission
                 authorizes. It will be ASLBP’s role to act as the judge during the
                 Yucca Mountain license proceeding. To date, NRC has spent over
                 $5 million to make the system capable and ready to receive
                 discovery documents. The LSN business case states that the
                 system will operate through fiscal year 2008, which will allow for its
                 use throughout the licensing process.


2
  10 CFR § 2.1001 states that for the purpose of the Yucca Mountain proceedings, party means DOE, the
NRC staff, the state of Nevada, any affected unit of local government, and any affected Indian Tribe.
3
  The LSN system was developed under contract by AT&T. Network security is provided by the contractor,
including firewall protection.


                                                  2
                                                                Audit of the Licensing Support Network



            While LSN is capable of housing 4 million documents (40 million
            pages), as of May 2004, 140,455 documents had been loaded and
            indexed. Figure 1 contains the projected percentage of documents
            expected from each party.


     Figure 1.


                             Expected Document Collection
                              100
                               80
                                                  95.08
             Percentage of     60
              Collection       40
                               20      3.52                      0.95       0.45
                                 0
                                      NRC         DOE      State of        Other
                                                           Nevada         Parties

                                                      Parties


      * Sizes of the document collections are predicted at: NRC – 37,000 documents; DOE –
      1,000,000 documents; State – 10,000 documents; other parties – 4,700 documents




II. PURPOSE

            The objectives of this audit were to determine if (1) the LSN system
            meets its required operational capabilities, (2) NRC’s
            communication with parties regarding LSN has been adequate, and
            (3) the system provides for the confidentiality, availability, and
            integrity of the data stored in the system.


III. FINDINGS

            In May 2004, NRC reached a long-sought agreement with DOE
            concerning LSN document availability. Additionally, ASLBP
            communications with the parties about LSN and the Yucca
            Mountain licensing process have been effective. However,
            improvements are needed to strengthen LSN system security.
            Specifically, NRC needs to establish written agreements
            addressing security responsibilities with parties whose servers are
            interconnected with LSN and to bring the LSN security plan into
            compliance with Federal regulations.


                                              3
                                              Audit of the Licensing Support Network




A. NRC AND DOE AGREE ON AN APPROACH FOR MAKING DOE
   DOCUMENTS AVAILABLE VIA LSN

       In May 2004, NRC and DOE reached a long-sought agreement that
       allows parties access to DOE’s discovery document collection in
       accordance with LSN Rule requirements concerning document
       availability. Through this agreement, DOE began providing NRC
       with electronic access to DOE’s initial set of approximately 500,000
       discovery documents before DOE certified this collection on June
       30, 2004. Such access allowed NRC to begin processing and
       making these documents available in anticipation of a December
       2004 license application submittal.

       Document Availability Requirements

       LSN Rule requirements are intended to facilitate access to
       discovery documents before DOE submits a license application.
       DOE is required to certify and make its discovery documents
       electronically available at least 6 months before submitting the
       license application and must update this certification at application
       submittal time. NRC must certify and make its own discovery
       documents electronically available within 30 days after DOE’s initial
       certification, and other parties must certify and make their material
       available within 90 days after DOE’s initial certification (see Figure
       2). The LSN Rule states that certification occurs when a
       responsible party official formally asserts to NRC that its discovery
       document collection has been identified and made electronically
       available.




                                  4
                                            Audit of the Licensing Support Network




Figure 2.




      NRC and DOE Concerns Over Availability

      The issue of timely document availability has been a point of
      contention for NRC and DOE in past years and, until recently, the
      two agencies had not been able to negotiate a solution to
      accommodate LSN processing time requirements. LSN can
      process and make documents available at a rate of approximately
      150,000 documents per week. Given this processing rate, NRC
      requested that parties provide a significant percentage of their
      documentary material before certification in order to be indexed and
      loaded for availability in accordance with LSN Rule requirements.
      (See Appendix C for a timeline reflecting significant
      communications concerning LSN document availability.)

      Prior to the recent agreement, DOE had not agreed to
      accommodate this request because DOE was concerned it would
      lose control over its collection and that its documents would
      become available prior to certification.




                                5
                                                                     Audit of the Licensing Support Network




                  LSN Rule Revision and New LSN User Guidance Support NRC-
                  DOE Agreement

                  The recent NRC-DOE agreement is supported by (1) a revision to
                  the LSN Rule concerning supplementation of initial document
                  collections and (2) an ASLBP update of LSN user guidance with a
                  section concerning pre-certification submission of documents to
                  NRC for processing. The LSN Rule revision requires DOE and
                  other parties to supplement their initial document collections with
                  documents produced after certification up until the close of the
                  discovery period4. ASLBP’s new LSN user guidance (LSN
                  Guideline Number 23, “Access Control Prior to Initial Certification”)
                  provides a strategy for parties to submit documents to LSN for pre-
                  certification processing. The guidance explains that these
                  documents need not be made available to the public or another
                  party until the owner party provides initial certification of its
                  document collection.


    B. ASLBP COMMUNICATIONS WITH PARTIES HAVE BEEN WELL
       RECEIVED

                  ASLBP staff efforts to communicate with and accommodate the
                  technical needs of the parties who will be using LSN have been
                  well received by party representatives. Responses to technical
                  needs have included allowing parties access for both viewing the
                  universe of discovery documents and making their own document
                  collections available through the system.

                  According to party representatives, ASLBP staff communicated
                  effectively during numerous LSN Advisory Review Panel meetings
                  held in Nevada during the LSN development stage. These
                  meetings provided a forum in which party representatives could
                  freely express concerns about the system. One representative
                  stated these meetings allowed smaller parties to feel equal to large
                  government agencies because all viewpoints expressed during
                  these meetings received careful consideration. Another
                  representative stated these meetings provided party
                  representatives with valuable information on the licensing process,
                  which they could then convey to their communities. A different
                  party representative stated ASLBP staff consistently provided quick

4
 Code of Federal Regulations, Title 10, Part 2, Appendix D, “Schedule for the Proceeding on Consideration
of Construction Authorization for a High-Level Waste Geologic Repository,” anticipates the close of
discovery to occur near the time of the second pre-hearing conference held to finalize issues for hearing and
set schedule for prefiled testimony and hearing.


                                                     6
                                                         Audit of the Licensing Support Network



                   and thorough responses to their questions. One party
                   representative, experienced in public-government interactions, said
                   these meetings provided the best interactions with government
                   entities he ever experienced.

                   ASLBP staff have also provided technical support to the parties,
                   although this type of assistance is not required by Federal
                   regulations. Party representatives reported ASLBP addressed their
                   system issues fairly and completely. These individuals stated the
                   guidance they received helped them establish their servers. Some
                   party representatives received hands-on training on LSN from
                   ASLBP staff.

                   ASLBP’s success in communicating with the parties has generated
                   a positive view toward the agency and provides an example of
                   NRC’s efforts to strengthen public confidence.


      C. NRC LACKS AGREEMENTS ON SECURITY WITH INTERCONNECTED
         PARTIES

                   ASLBP lacks written agreements addressing security
                   responsibilities with parties whose servers are interconnected with
                   LSN. Such agreements are required by Federal regulations
                   between interconnecting system owners when one party is a
                   Federal agency. NRC lacks such agreements5 because ASLBP
                   does not view LSN as interconnected, even though it meets the
                   Government’s definition of such a system. By establishing written
                   agreements addressing security responsibilities with parties whose
                   servers are interconnected with LSN, NRC can strengthen LSN’s
                   protection against security breaches that could compromise LSN
                   and the interconnected servers. A security breach could
                   compromise the discovery data, which would affect both the Yucca
                   Mountain license proceedings and public confidence in NRC.

                   Interconnected Parties Should Agree on Security Procedures
                   and Controls

                   Office of Management and Budget (OMB) Circular No. A-130
                   Appendix III, “Security of Federal Automated Information
                   Resources,” establishes a minimum set of controls that Federal
                   agencies must include in their automated information security
                   programs. OMB requires that before an agency allows its systems
                   to be connected to other entities’ systems, it must obtain written
                   management authorization from the other system owners agreeing

5
    LSN is the only NRC owned interconnecting system.


                                                    7
                                       Audit of the Licensing Support Network



to implement measures to protect the integrity of the
interconnections. This written agreement – which can be in the
form of a memorandum of understanding between the agency and
each interconnected entity – should define the rules of behavior
and controls that must be maintained for the system
interconnections, and should be included in the Federal agency’s
system security plan.

The National Institute of Standards and Technology (NIST) defines
interconnection as the direct connection of two or more information
technology systems for the purpose of sharing data and other
information resources. NIST identifies basic components of a
system interconnection: two information technology systems and
the mechanism by which they are joined (the “pipe” through which
data is made available, exchanged, or passed one-way only).

LSN Has No Requirements for Interconnected Servers

Although LSN meets NIST’s definition of an interconnected system,
NRC lacks written agreements with interconnected LSN parties
agreeing to protect the integrity of the interconnections. LSN
contains numerous security features intended to protect the
integrity of the system data, such as virus scanning and audit trails;
however, there are no security requirements for interconnected
servers. While such security requirements are not required for
private sector interconnected servers, as a matter of prudent best
practices, written agreements addressing security responsibilities
should nonetheless be obtained.

NRC Does Not View LSN as an Interconnected System

NRC never pursued written agreements with the other parties
because ASLBP views the system as independent and not
connected with other systems. An ASLBP member stated that LSN
does not connect to the servers, but that it indexes the information
on the server. The LSN security plan reflects this view, stating that
LSN is an intermediary between public Web sites and LSN-specific
sites and users. Thus, according to the plan, there is no
interconnectivity between LSN and any other system.

During the course of this audit, OIG conveyed to ASLBP officials
the need for a memorandum of understanding. ASLBP officials
agreed and subsequent to the meeting developed a draft document
for review by the parties and issued a final version on May 27,
2004.




                           8
                                              Audit of the Licensing Support Network




       Agreement Would Help To Mitigate Risk

       By establishing agreements on security with the interconnected
       server parties, NRC will strengthen LSN’s protection against the
       risks posed by interconnectivity. For example, if an interconnection
       is not properly designed, security failures could compromise the
       connected systems and the data that they store, process, or
       transmit. Although LSN has not faced a security compromise, if
       LSN data were to become compromised this could affect both the
       license proceedings and the public confidence in the agency. The
       potential for compromise is underscored by the fact that, in most
       cases, the participating organizations have little or no control over
       the operation and management of the other party’s system. It is
       critical NRC establish written agreements with parties whose
       servers are interconnected with LSN regarding the management,
       operation, and use of the interconnection.

       RECOMMENDATION

       OIG recommends that the ASLBP:

       1. Establish written agreements with each interconnected party
          detailing minimum security responsibilities for their
          interconnected system.


D. LSN SECURITY PLAN LACKS COMPLETE DOCUMENTATION

       NRC has conducted extensive reviews of LSN system security;
       however, review results have not been documented in the system
       security plan despite Federal requirements that this occur. This
       information was not included in the security plan because ASLBP
       was unaware of these particular requirements. As a result, the
       security plan is not in compliance with Federal regulations.
       Furthermore, by storing this information in a single location, NRC
       can better ensure that security issues are addressed and resolved.

       According to OMB Circular No. A-130, Federal agency system
       security plans must be consistent with guidance issued by NIST.
       System security plans document the management, technical, and
       operational controls for protecting Federal automated information
       systems. NIST Special Publication 800-18, Guide for Developing
       Security Plans for Information Technology Systems, provides
       guidance for Federal agencies to follow when developing these
       plans. According to OMB and NIST, agencies must:



                                  9
                                                                    Audit of the Licensing Support Network



                 •    Conduct a risk assessment as part of a risk-based approach to
                      determining adequate, cost-effective security for a system,

                 •    Perform, at least every 3 years, an independent review of the
                      security controls for each major application,

                 •    Include in each system’s security plan information about the last
                      independent review and any findings or recommendations from
                      the review, and

                 •    Place responsibility for ensuring system security and updating
                      the system security plan on a management official6 with
                      knowledge of and responsibility for the system.

                 ASLBP has conducted extensive reviews of LSN system security;
                 however, review findings and improvements made to LSN security
                 have not been documented in the system security plan. These
                 review efforts have included both NRC-sponsored risk
                 assessments and an independent review by the National Security
                 Agency to provide verification that existing controls provide a level
                 of protection commensurate to the needs of the system. The
                 ASLBP staff working on LSN have resolved the issues from both
                 the in-house and independent reviews, yet NRC’s LSN security
                 plan does not reflect these efforts because ASLBP was unaware
                 that this was required.

                 By documenting the results of NRC’s risk assessments and security
                 reviews in the LSN security plan, NRC will comply with Federal
                 requirements and better ensure that security issues are addressed
                 and resolved.

                 RECOMMENDATION

                 OIG recommends that the ASLBP:

                 2. Update the security plan to include information required by OMB
                    Circular No. A-130.




6
 For the LSN system this responsibility is placed with the LSN project officer who oversees the LSN
contract.


                                                   10
                                             Audit of the Licensing Support Network



IV. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the ASLBP:

        1. Establish written agreements with each interconnected party
           detailing minimum security responsibilities for their
           interconnected system.

        2. Update the security plan to include information required by OMB
           Circular No. A-130.




                                 11
                    Audit of the Licensing Support Network




[Page intentionally left blank.]




       12
                                            Audit of the Licensing Support Network



V. AGENCY COMMENTS

     On July 14, 2004, the Executive Director of Operations provided
     comments and on July 16, 2004, the Chief Administrative Judge
     provided comments concerning the draft audit report. We modified the
     report as we determined appropriate in response to these comments.
     Appendices D and E contain both NRC’s comments and our specific
     response to each comment.




                                 13
                    Audit of the Licensing Support Network




[Page intentionally left blank.]




       14
                                                Audit of the Licensing Support Network

                                                                        Appendix A
SCOPE AND METHODOLOGY

       This audit reviewed the Licensing Support Network (LSN) to (1)
       assess if the LSN system meets its required operational
       capabilities, (2) determine if the Nuclear Regulatory Commission’s
       (NRC) communication with parties to the Yucca Mountain licensing
       proceedings has been adequate, and (3) determine if LSN provides
       for the confidentiality, availability, and integrity of the data stored in
       the system.

       The Office of the Inspector General audit team reviewed relevant
       criteria, including the Code of Federal Regulations, Title 10, Part 2,
       Subpart J, “Procedures Applicable to Proceedings for the Issuance
       of Licenses for the Receipt of High-Level Radioactive Waste at a
       Geologic Repository” (LSN Rule); Office of Management and
       Budget Circular No. A-130 Appendix III, “Security of Federal
       Automated Information Resources”; General Accounting Office
       “Federal Information System Controls Audit Manual”; and National
       Institute of Standards and Technology guidance. The audit team
       also reviewed LSN business case and NRC system development
       documents to gain a comprehensive understanding of the system.

       Auditors interviewed Atomic Safety and Licensing Board Panel staff
       to better understand the activities and actions taken concerning
       LSN, an Office of the Chief Information Officer staff member to
       determine compliance with system security requirements, and
       Office of the General Counsel staff to better understand NRC’s role
       in the Yucca Mountain licensing process. Interviews were
       conducted with representatives from interested parties, including
       the Department of Energy; State of Nevada; City of Las Vegas;
       Clark, Churchill, Eureka, Lander, Lincoln, Mineral, and White Pine
       counties; and the Nevada Nuclear Waste Task Force.

       This work was conducted from November 2003 through March
       2004 in accordance with Generally Accepted Government Auditing
       Standards. The work was conducted by Elizabeth Bowlin, Auditor;
       Rebecca Underhill, Management Analyst; and Beth Serepca, Team
       Leader.




                                   15
                            Audit of the Licensing Support Network




[Page intentionally left blank.]




              16
                                             Audit of the Licensing Support Network

                                                                     Appendix B



DIAGRAM OF LICENSING SUPPORT NETWORK ARCHITECTURE




                                            Other
       DOE       NRC            Nevada      Parties
       Server    Server         Server      Servers




                Licensing Support Network
                       www.lsnnet.gov




   Public                                      Party
   Access                                      Access




                                 17
                             Audit of the Licensing Support Network




[Page intentionally left blank.]




                18
                                                      Audit of the Licensing Support Network

                                                                              Appendix C

TIMELINE OF SIGNIFICANT LSN EVENTS

DATE            ACTIVITY

June 2001       ASLBP issues LSN Guideline Number 8, “Schedule of Submission of
                Documentary Material.” This guideline discusses the need for
                parties to make a “significant percentage” of their documentary
                material available before certifying their document collections are
                complete.

August 2001     LSN Semiannual Report to the Commission states once LSN is
                operational, an LSN-related dispute potentially could be raised that
                would require consideration by a Pre-License Application Presiding
                Officer.

August 2001     DOE estimates its document collection will comprise 900,000
                documents.

October 2001    LSN system becomes operational.

June 2002       DOE projects it will submit its license application for the Yucca
                Mountain High-Level Waste Repository in December 2004,
                extending the date from March 2002. Given this application date of
                December 2004, DOE projects it will certify the completeness of its
                document collection in June 2004.

September 2002 LSN Semiannual Report to the Commission describes DOE’s
               projected schedule. See June 2002 item above.

February 2003   LSN Semiannual Report to the Commission states that in November
                2002, DOE issued a solicitation for a contractor to organize and
                prepare DOE documentary material, but has not indicated the date it
                expects to start making this material available to LSN.

April 2003      DOE revises its document collection estimate to 3- to 4-million
                documents. The documents are expected to comprise between
                27.5- and 36.5-million pages.

April 2003      ASLBP responds in writing to DOE’s new estimate of its document
                collection. ASLBP predicts it will take LSN software 40 weeks to
                index 4 million documents.

June 2003       DOE offers to index its document collection prior to certification.
                ASLBP declines, citing document integrity.




                                         19
                                                        Audit of the Licensing Support Network

                                                                                Appendix C

DATE             ACTIVITY

August 2003      LSN Semiannual Report to the Commission states ASLBP advised
                 DOE in a letter dated April 29, 2003, of their understanding that
                 documents are not “available” via LSN until the indexing process is
                 complete.

September 2003 ASLBP upgrades the capacity of LSN to visit, identify, and retrieve
               newly available materials from 100,000 to 150,000 documents per
               week.

February 2004    ASLBP corresponds in writing with DOE to negotiate a strategy to
                 make the DOE document collection available to the LSN
                 Administrator before certification. According to ASLBP, this could
                 reduce the impact of LSN processing time on the licensing
                 proceedings.

March 2004       ASLBP and DOE meet to discuss a strategy to make the DOE
                 document collection available to the LSN Administrator before
                 certification to reduce the impact of LSN processing time on the
                 licensing proceedings.

April 2004       ASLBP issues LSN Guideline Number 23, “Access Control Prior to
                 Initial Certification,” to inform parties of the steps required to submit
                 documents to the LSN Administrator for processing prior to
                 certification. This guidance specifically explains that these
                 documents would not be available to other parties for case
                 preparation until after certification.

April 2004       10 CFR, Part 2, Subpart J (the LSN rule) is in final draft stage of
                 revision. Amendments pertain to LSN participants’ continuing
                 obligation to update their documentary material after initial
                 certification and other issues.

May 2004         DOE revises its document collection estimate to 1 million documents.
                 The documents are expected to comprise 12 million pages.

May 2004         ASLBP and DOE reach agreement concerning document availability
                 for processing by LSN. DOE agrees to provide documents to NRC in
                 accordance with ASLBP guidance issued in April 2004.

June 2004        DOE submits initial certification of its document collection.

July 2004        The effective date of the revised final LSN Rule is July 14, 2004.




                                           20
                              Audit of the Licensing Support Network

                                                      Appendix D
ASLBP COMMENTS AND OIG RESPONSE




                       21
     Audit of the Licensing Support Network

                             Appendix D




22
                                                   Audit of the Licensing Support Network

                                                                           Appendix D
OIG’s Analysis of ASLBP’s Comments

While LSN is similar to FirstGov.gov in respect that they are both web portals,
LSN is unique from this other system. LSN not only connects independent
document collection servers, it retains information from those collection servers
on its server. In addition, LSN deposits a unique identifier on every document
contained within each independent document server. This transfer of information
between independent servers increases the vulnerability to the LSN system. We
contacted a NIST official who verified that LSN met the requirements of OMB
Circular A-130 regarding interconnecting systems. Therefore this finding is
unchanged.




                                       23
                            Audit of the Licensing Support Network




[Page intentionally left blank.]




              24
                                Audit of the Licensing Support Network

                                                        Appendix E
EDO COMMENTS AND OIG RESPONSE




                       25
     Audit of the Licensing Support Network

                             Appendix E




26
     Audit of the Licensing Support Network

                             Appendix E




27
                                                   Audit of the Licensing Support Network

                                                                           Appendix E
OIG’s Analysis of the EDO’s Comments

Below are the agency’s comments to the draft audit report and OIG’s response to
each comment. Agency’s comments appear in bold italics.

   1. The first sentence of the paragraph entitled “Creation of the
      Licensing Support Network” (LSN) (page 1), incorrectly indicates that
      the Federal regulations that dictate the “rules for licensing” Yucca
      Mountain are contained in 10 CFR Part 2, Subpart J. Part 2,
      Subpart J defines procedures applicable to proceedings for issuance
      of licenses for receipt of high-level radioactive waste at a geologic
      repository. We suggest changing this sentence to read: “Federal
      regulations that dictate the rules for licensing Yucca Mountain
      procedures applicable to the proceeding for issuance of a license for
      a high-level waste geologic repository are contained in...Part 2,
      Subpart J.”

      We modified the report wording to correctly characterize Subpart J.

   2. Section A, NRC and DOE Agree on an Approach for Making DOE
      Documents Available via LSN (page 5).
      This section needs to be updated to reflect DOE’s certification to the
      NRC on June 30, 2004, of the public availability through the Internet
      of documents relative to Yucca, as well as to reflect DOE’s provision
      of documents prior to this certification (see DOE’s press release at
      http://www.doe.gov/engine/content.do?PUBLIC_ID=
      16120&BT_CODE=PR_PRESSRELEASES&TT_CODE=PRESSRELEA
      SE).

      We modified the report wording to reflect DOE’s certification to the NRC.

   3. The first paragraph under the section entitled “Future Issues”
      (page 7), is a discussion of estimates of the size of DOE’s document
      collection. OIG may wish to update this information to reflect the
      estimates provided in the DOE press release issued on June 30, 2004
      (see comment #2 for address).

      We deleted this paragraph from the report.

   4. Section C, NRC Lacks Agreements on Security With Interconnected
      Parties.
      The first sentence (page 9) should be clarified by revising it to read:
      “ASLBP lacks written agreements on addressing security
      responsibilities with parties whose servers are interconnected with
      LSN.”

      We modified the report wording to reflect the agency’s comment.


                                      28
                                                 Audit of the Licensing Support Network

                                                                         Appendix E

5. We do not believe that a plain reading of the information-sharing
   provision of Office of Management and Budget (OMB) Circular A-130,
   Management of Federal Information Resources (Appendix III,
   section f)) serves as the legal regulatory reference source for
   “Federal regulations” in the context of mandating a written
   agreement. The circular does not use obligatory terms (“shall” or
   “must”). The draft audit report’s reference to “Federal regulations”
   may be appropriately attributed to National Institute of Standards
   and Technology (NIST) Special Publication Number 800 -18, Guide
   for Developing Security Plans for Information Technology Systems.
   However, it should not be assumed that this publication is “Federal
   regulation” or requires complete compliance with the published
   guidance. The publication’s introduction states, “This document
   provides a guideline for federal agencies to follow...” (emphasis
   added), and uses “should” throughout. Additionally, the Department
   of Justice Memorandum to Federal Chief Information Officers dated
   December 30, 1998, regarding the NIST security planning guide,
   refers to NIST Special Publication 800 -18 as a useful “guide” that
   Federal agencies “can” use. Moreover, NIST Special Publication
   Number 800-47, Security Guide for Interconnected Information
   Technology Systems, expressly notes that it is not a guideline under
   NIST’s statutory authority and serves as recommended guidance.
   (emphasis added). Therefore, we recommend the following changes
   to the report:

      a. In the first paragraph of section C (page 9), we recommend
         changing the reference in the second sentence, “are required
         by Federal regulations,” to be more accurate, e.g., change to
         “are recommended by a National Institute of Standards and
         Technology (NIST) publication” or “are recommended by
         Federal guidelines.”

   EDO officials believe that section C is only recommended guidelines and
   not Federal requirements. OMB Circular A-130 is in fact a Federal
   regulation as noted by Circular A-1. This Circular states, “The provisions
   of any Circular or Bulletin, except as otherwise specifically provided in any
   given Circular or Bulletin, shall be observed by every such department or
   establishment insofar as the subject matter pertains to the affairs of such
   department or establishment.” Therefore the report wording remains
   unchanged.

      b. In the paragraph of section C entitled “LSN Has No
         Requirements for Interconnected Servers” (page 10), we
         recommend adding the following sentence at the end of the
         paragraph: “While such security requirements are not


                                     29
                                               Audit of the Licensing Support Network

                                                                       Appendix E
         required for private sector interconnected servers, as a matter
         of prudent best practices, written agreements addressing
         security responsibilities should nonetheless be obtained.”

   We included the agency’s recommended sentence.

      c. In the first paragraph of section D (page 11), we recommend
         that the third sentence be changed to read: “As a result, the
         security plan is not in compliance with Federal regulations
         guidance.”

   See OIG response for comment a.

      d. Change the sentence just prior to recommendation 2 in
         section D (page 13) to read: “By documenting the results of
         NRC’s risk assessments and security reviews in the LSN
         security plan, NRC will comply conform with Federal
         requirements guidelines...”

   See OIG response for comment a.

6. The diagram of the LSN architecture in Appendix B of the report
   (page 17) contains a block “Access to LSN Documents,” which is not
   connected to the rest of the diagram. We suggest providing an
   appropriate connection or deleting the block.

   We modified the diagram to more clearly delineate access to LSN.

7. OIG may want to consider including the recent DOE certification on
   June 30, 2004 to the timeline of significant LSN events in Appendix C
   of the report (pages 18-19).

   Added row to Appendix C to reflect DOE certification.




                                   30
